                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00241-128


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

   El Paso VA Health Care System 

           El Paso, Texas 





April 24, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                       CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          2


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of March 3, 2014, at the Eastside
El Paso CBOC, El Paso, TX, which is under the oversight of the El Paso VA Health
Care System and Veterans Integrated Service Network 18.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                 However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

   	   The external signage clearly identifies the building as a VA CBOC at the Eastside
        El Paso CBOC.

   	   The testing of the panic alarm system is documented at the Eastside El Paso
        CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

   	   Staff consistently document the offer of further treatment to patients diagnosed
        with alcohol dependence.

   	   Staff document a plan to monitor the alcohol use of patients who decline referral
        to specialty care.

Medication Management. Ensure that CBOC/PCC staff:

   	   Complete and document medication reconciliation at each episode of care where
        the newly prescribed fluoroquinolone was administered, prescribed, or modified.

   	   Consistently provide        written   medication   information    that   includes   the
        fluoroquinolone.

   	   Provide medication counseling/education that includes the fluoroquinolone.

   	   Document the evaluation of patient’s level of understanding for the medication
        education.




VA OIG Office of Healthcare Inspections                                                       i
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14-18, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                                   CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                                  CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Eastside El Paso
CBOC. The table below shows the areas reviewed for this topic. The areas marked as NM did
not meet applicable requirements and needed improvement.

Table 2. EOC

NM                    Areas Reviewed                                             Findings
 X     The CBOC’s location is clearly identifiable         The Eastside El Paso CBOC’s location was
       from the street as a VA CBOC.                       clearly not identifiable from the street as a VA
                                                           CBOC by the address provided by the parent
                                                           facility.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
 X     An alarm system and/or panic buttons are            Testing of the alarm/panic buttons at the
       installed and tested in high-risk areas.            Eastside El Paso CBOC was not documented.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.



VA OIG Office of Healthcare Inspections                                                                       3
                                          CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


NM               Areas Reviewed (continued)                                   Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing personally identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that external signage clearly identifies the building as a VA CBOC at the
Eastside El Paso CBOC.

2. We recommended that testing of the panic alarm system is documented at the Eastside
El Paso CBOC.


VA OIG Office of Healthcare Inspections                                                                   4
                                          CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further         We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol       further treatment for three of eight patients
       dependence.                                         diagnosed with alcohol dependence.
 X     For patients with AUD who decline referral to       CBOC/PCC staff did not monitor the alcohol use
       specialty care, CBOC/PCC staff monitored            for two of three patients who declined referral to
       them and their alcohol use.                         specialty care.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

4. We recommended that CBOC/Primary Care Clinic staff document a plan to monitor the
alcohol use of patients who decline referral to specialty care.


VA OIG Office of Healthcare Inspections                                                                         5
                                          CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                           Findings
 X     Clinicians documented the medication                We did not find documentation that medication
       reconciliation process that included the            reconciliation included the newly prescribed
       fluoroquinolone.                                    fluoroquinolone in 5 (13 percent) of 40 patient
                                                           EHRs.
 X     Written information on the patient’s prescribed     We did not find documentation that 11 (28
       medications was provided at the end of the          percent) of 40 patients received written
       outpatient encounter.                               information that included the fluoroquinolone.
 X     Medication counseling/education for the             We did not find documentation of medication
       fluoroquinolone was documented in the               counseling that included the fluoroquinolone in
       patients’ EHRs.                                     7 (18 percent) of 40 patients’ EHRs.
 X     Clinicians documented the evaluation of each        Clinicians did not document the level of
       patient’s level of understanding for the            understanding for 13 (33 percent) of 40 patients.
       education provided.
       The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

6. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

7. We recommended that staff provide medication counseling/education that includes the
fluoroquinolone.

8. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                        6
                                          CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                          Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                   7
                                                                             CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                                                                   Appendix A


                                                                   CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                    Uniquesd                                  Encountersd

                               Station                   CBOC
        Location       State              Localitye                   MHg        PCh       Otheri       All       MHg        PCh       Otheri       All
                                  #                       Sizef
    East El Paso (El
                        TX      756GB       Urban       Mid-Size      937       3,508      2,111      4,161      2,842       7,608      4,070     14,520
    Paso County)
    Las Cruces         NM       756GA       Urban       Mid-Size     1,070      2,770      1,970      3,290      5,561       6,515      6,386     18,462




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx 

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    8
                                   CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


                                   CBOC Services Provided 

In addition to primary care integrated with WH and Mental Health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.j

                                                                                                  Tele-Health
           CBOC               Specialty Care Servicesk           Ancillary Servicesl
                                                                                                   Servicesm
    East El Paso (El Paso                 ---                      Rehabilitation              Tele Primary Care
    County)                                                     Electrocardiography
                                                             Diabetic Retinal Screening
    Las Cruces                Anti-Coagulation Clinic               Social Work                Tele Primary Care
                                                                Electrocardiography
                                                                   Rehabilitation
                                                             Diabetic Retinal Screening
                                                                      Nutrition
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/)
 

VA OIG Office of Healthcare Inspections                                                                            9
                                                                            CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                                                                  Appendix B


                                                         PACT Compass Metrics





                                                                                                                                                            
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                               10
                                                                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on
the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   13
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 9, 2014

          From: 	      Network Director, VA Southwest Heath Care Network 

                       (10N18)


       Subject: 	      CBOC and PCC Reviews at El Paso VA Health Care
                       System, El Paso, TX

             To:       Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CBOC and PCC Reviews at El Paso VA Health Care
          System, El Paso, Texas.

       2. If you have any questions or concerns, please contact Robert Baum,
          Executive Officer to the Network Director, VISN 18, at (480) 397-2777.




VA OIG Office of Healthcare Inspections                                                      14
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       March 26, 2014

          From:        Director, El Paso VA Health Care System (756/00)

       Subject: 	      CBOC and PCC Reviews at El Paso VA Health Care
                       System, El Paso, TX

             To: 	     Network Director, VA Southwest Health Care Network
                       (10N18)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CBOC and PCC Reviews at El Paso VA Health Care
          System, El Paso, Texas.

       2. Corrective action plans have 	been established, with some being
          already implemented, and target completion dates have been set for
          the remaining items as detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                      15
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that external signage clearly identifies the 

building as a VA CBOC at the Eastside El Paso CBOC. 


Concur


Target date for completion: June 2014 


Facility response: A purchase order for signage was placed on March 12, 2014. 

Installation is being coordinated between the vendor and Facility Support Service

representative. 


Recommendation 2. We recommended that testing of the panic alarm system is

documented at the Eastside El Paso CBOC. 


Concur


Target date for completion: Completed. 


Facility response: Monthly panic alarm testing has been conducted and documented 

since November 2013. Effective March 2014, this information is reported monthly to the 

Safety and Environment of Care Committee as reflected in the meeting minutes from 

March 18, 2014 meeting. 


Recommendation 3.        We recommended that CBOC/Primary Care Clinic staff 

consistently document the offer of further treatment to patients diagnosed with alcohol 

dependence. 


Concur


Target date for completion: June 2014 


Facility response: An action plan has been developed and implemented. Clinical 

record reviews begin March 31, 2014 and will be reported to Quality Board for oversight 

until improvements have been achieved and sustained. 





VA OIG Office of Healthcare Inspections                                                      16
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


Recommendation 4.       We recommended that CBOC/Primary Care Clinic staff
document a plan to monitor the alcohol use of patients who decline referral to specialty
care.

Concur

Target date for completion: Completed

Facility response: An action plan has been developed and implemented. Clinical
record reviews begin March 31, 2014, and will be reported to Quality Board for oversight
until improvements have been achieved and sustained. 


Recommendation 5.        We recommended that staff document that medication 

reconciliation was completed at each episode of care where the newly prescribed 

fluoroquinolone was administered, prescribed, or modified. 


Concur

Target date for completion: June 2014

Facility response: Process changes were implemented in February, 2014. Pharmacy
Service is monitoring compliance and will report to Pharmacy and Therapeutics
Committee for oversight until improvements have been achieved and sustained.

Recommendation 6.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: June 2014

Facility response: Process changes were implemented in February, 2014. Pharmacy
Service is monitoring compliance and will report to Pharmacy and Therapeutics
Committee for oversight until improvements have been achieved and sustained.

Recommendation 7. We recommended that                           staff   provide     medication
counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: June 2014

Facility response: Process changes were implemented in February, 2014. Pharmacy
Service is monitoring compliance and will report to Pharmacy and Therapeutics
Committee for oversight until improvements have been achieved and sustained.




VA OIG Office of Healthcare Inspections                                                      17
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX


Recommendation 8. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: June 2014

Facility response: Process changes were implemented in February, 2014. Pharmacy
Service is monitoring compliance and will report to Pharmacy and Therapeutics
Committee for oversight until improvements have been achieved and sustained.




VA OIG Office of Healthcare Inspections                                                      18
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Judy Montano, MS, Team Leader
Contributors            Katrina Young, RN, MSHL
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Derrick Hudson
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Glen Pickens, RN, MHSM
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      19
                              CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, El Paso VA Health Care System (756/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz, Martin Heinrich, Tom Udall
U.S. House of Representatives: Pete Gallego, Beto O’Rourke, Steve Pearce


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      20
                                      CBOC and PCC Reviews at El Paso VA Health Care System, El Paso, TX
                                                                                            Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    21
